Nos. 19-251, 19-255
lNTHE

&uprtmt Court of tbt 11'.nittb &tattf
AMERICANS FOR PROSPERITY FOUNDATION,

Petitioner,

V.

MATTHEW RODRIQUEZ,

Acting Attorney General of California,
Respondent.
THOMAS MORE LAW CENTER,

v.

Petitioner,

MATTHEW RODRIQUEZ,

Acting Attorney General of California,
Respondent.
ON WRITS OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE NINTH CmCUIT
BRIEF FOR STATES OF NEW YORK, COLORADO,
CONNECTICUT, IIAWAI'I, ILLINOIS, MAINE, MARYLAND,
MASSACHUSETTS, MICHIGAN, NEVADA, NEW JERSEY,
NEW MEXICO, OREGON, PENNSYLVANIA, RHODE ISLAND,
AND VmGINIA, AND THE DISTRICT OF COLUMBIA
AS AMICI CURIAE IN SUPPORT OF RESPONDENT
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.l(h), I certify that the document contains
8,884 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33. l(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 31, 2021.

Colin Casey
an
Wilson-Epes Printing Co., Inc.

